               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Fiscal Year 2012 Postal Service
         Financial Statements Audit –
          Eagan Accounting Services

                       Audit Report




                                              February 5, 2013

Report Number FT-AR-13-009
                                                                   February 5, 2013

                                                     Fiscal Year 2012 Postal Service
                                                        Financial Statements Audit –
                                                         Eagan Accounting Services

                                                        Report Number FT-AR-13-009



BACKGROUND:
The U.S. Postal Service Eagan               accounting transactions were fairly
Accounting Services is responsible for      stated, and general ledger account
processing payroll, maintaining the         balances conformed to the general
general ledger, reconciling financial       classification of accounts. Finally, the
data, and maintaining cash and              Postal Service complied with laws and
receivable accounts. We conducted this      regulations having a direct and material
audit in support of the independent         effect on the financial statements.
public accounting firm’s overall opinions   However, we determined the Postal
on the Postal Service’s financial           Service did not comply with federal
statements and internal controls over       regulations regarding records retention
financial reporting.                        for the Combined Federal Campaign
                                            program.
Our objectives were to determine
whether:                                    We did not propose adjustments;
                                            however, throughout the year, we
   Financial accounting policies and       reviewed internal controls over financial
    procedures provide for an adequate      reporting and issued a separate interim
    internal control structure and comply   report regarding the interpretation of
    with accounting principles.             compensation cap provisions. The
                                            Postal Service is presently seeking
   Accounting transactions are fairly      advice from the U.S. Department of
    stated.                                 Justice Office of Legal Counsel to
                                            resolve all the issues identified in the
   General ledger account balances         interim report. Accordingly, we did not
    conform to the general classification   propose any further recommendations
    of accounts.                            regarding the compensation cap
                                            provisions in this report.
   The Postal Service complies with
    laws and regulations that have a        WHAT THE OIG RECOMMENDED:
    direct and material effect on the       We recommended that management
    financial statements.                   revise their records retention policy for
                                            the Combined Federal Campaign to
WHAT THE OIG FOUND:                         comply with federal regulations.
Financial accounting policies and
procedures provided for an adequate         Link to review the entire report.
internal control structure and complied
with accounting principles. In addition,
February 5, 2013

MEMORANDUM FOR:           TIMOTHY F. O’REILLY
                          VICE PRESIDENT, CONTROLLER

                          DEBORAH M. GIANNONI-JACKSON
                          VICE PRESIDENT, EMPLOYEE RESOURCES
                          MANAGEMENT


FROM:                     John E. Cihota
                          Deputy Assistant Inspector General
                           for Financial and Systems Accountability

SUBJECT:                  Audit Report – Fiscal Year 2012 Postal Service Financial
                          Statements Audit – Eagan Accounting Services
                          (Report Number FT-AR-13-009)

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Eagan, MN, Accounting Services for the
fiscal year ended September 30, 2012 (Project Number 12BM002FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Jean D. Parris
    Dean R. Rodman
    Corporate Audit and Response Management
Fiscal Year 2012 Postal Service Financial Statements Audit –                                                       FT-AR-13-009
 Eagan Accounting Services



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Non-Compliance with Federal Regulations ..................................................................... 2

Recommendation ............................................................................................................ 2

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objectives, Scope, and Methodology .......................................................................... 5

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Management's Comments .......................................................................... 8
Fiscal Year 2012 Postal Service Financial Statements Audit –                                           FT-AR-13-009
 Eagan Accounting Services



Introduction

This report presents the results of our audit of selected financial activities and
accounting records at the U.S. Postal Service Accounting Services in Eagan, MN, for
the fiscal year (FY) ended September 30, 2012 (Project Number 12BM002FT000). We
conducted this audit in support of the independent public accounting (IPA) firm’s overall
opinions on the Postal Service’s financial statements and internal controls over financial
reporting.1 This audit addresses financial risk. See Appendix A for additional information
about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. In addition, congress passed Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
their responsibility for establishing and maintaining an adequate internal control
structure and make an assertion on the effectiveness of the internal control structure
over financial reporting. The Postal Accountability and Enhancement Act of 2006
requires the Postal Service to comply with Section 404 of SOX. The Board of Governors
(Board) contracted with the IPA to express opinions on the Postal Service’s financial
statements and internal controls over financial reporting.

Conclusion

During our audit of Eagan Accounting Services we noted that:

   The financial accounting policies and procedures of the Postal Service provided for
    an adequate internal control structure2 and complied with accounting principles
    generally accepted in the U.S.

   Accounting transactions at Eagan Accounting Services impacting the general ledger
    account balances for assets, liabilities, equity, income, and expenses of the Postal
    Service were fairly stated in accordance with accounting principles generally
    accepted in the U.S.

   General ledger account balances conformed with the general classification of
    accounts of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complied with laws and regulations relating to Eagan Accounting
    Services having a direct and material effect on the financial statements as a whole.
    However, we determined the Postal Service has not complied with federal


1
  The IPA maintains overall responsibility for testing and reviewing significant Eagan Accounting Services accounts
and processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to
ensure adequate coverage.
2
  To ensure key controls are properly designed and operationally effective.

                                                          1
Fiscal Year 2012 Postal Service Financial Statements Audit –                                           FT-AR-13-009
 Eagan Accounting Services


    regulations regarding records retention for the Combined Federal Campaign (CFC)
    program.

We did not propose any adjustments; however, we did issue an interim report regarding
the Postal Service's interpretation of compensation cap provisions.3 In response to our
recommendation, the U.S. Department of Justice Office of Legal Counsel is presently
reviewing the issue. This item was not material to the financial statements and did not
affect the overall adequacy of internal controls. Accordingly, we did not propose any
further recommendations in this report.

In addition, the IPA identified control deficiencies4 affecting Eagan Accounting Services
that were not in the scope of our audit and are not reported here. The IPA informed
management of these issues on November 1, 2012.

Non-Compliance with Federal Regulations

Postal Service policy did not comply with federal regulations regarding records retention
for the CFC program. Postal Service regulations5 state that the Privacy Act of 1974,6 as
amended, applies to all communications, written and verbal. To ensure employee
privacy, the Postal Service did not retain CFC pledge forms7 beyond 6 months.
However, federal regulations8 require CFC documents to be kept for three complete
campaign periods. The Privacy Act of 1974 does not specifically mention the CFC or
retention of pledge forms; therefore, federal regulations apply in this circumstance. As a
result, CFC pledge forms were prematurely destroyed and cannot be used to
substantiate employee contributions.

Recommendation

We recommend the vice president, Employee Resources Management, in conjunction
with the vice president, controller:

1. Revise the Postal Service’s records retention policy for the Combined Federal
   Campaign to comply with federal regulations.




3
  Officer Compensation for Calendar Year 2011 (Report Number FT-AR-13-001, dated October 19, 2012).
4
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect and correct misstatements on a timely
basis.
5
  Combined Federal Campaign Operational Guidelines, Publication 530, October 2011.
6
  5 U.S.C. §552a.
7
  Pledge forms are used to initiate employee contributions through payroll deductions.
8
  Title 5 Code of Federal Regulations – Administrative Personnel, Chapter I – Office of Personnel Management,
Subchapter B – Civil Service Regulations, Part 950 – Solicitation of Federal Civilian and Uniform Service Personnel
for Contributions to Private Voluntary Organizations §950.604 Records Retention.


                                                          2
Fiscal Year 2012 Postal Service Financial Statements Audit –            FT-AR-13-009
 Eagan Accounting Services



Management’s Comments

Management agreed with the finding and recommendation and will revise procedures to
retain CFC pledge forms for 4 years. The planned action is scheduled for
implementation by June 30, 2013. See Appendix B for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective action should resolve the issue identified in the report.




                                                     3
Fiscal Year 2012 Postal Service Financial Statements Audit –                                             FT-AR-13-009
 Eagan Accounting Services



                                  Appendix A: Additional Information

Background

Eagan Accounting Services is one of three accounting services9 offices and functions
as a large, centralized accounting and disbursement center. Its employees are
responsible for processing payroll, maintaining the general ledger, reconciling financial
data, and maintaining cash and receivable accounts.

We have issued separate reports for St. Louis10 and San Mateo11 Accounting Services
and will issue a separate financial statements audit report for headquarters. Further, in
addition to the overall opinions on the Postal Service’s financial statements and internal
controls over financial reporting, the Board’s IPA issued a separate report on its
consideration of the Postal Service’s internal controls and its test of compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of that
report was to describe the scope of testing of internal controls over financial reporting
and compliance and the results of that testing, not to provide an opinion on internal
controls over financial reporting or on compliance.12 The OIG also issued a separate
report for the audit of the FY 2012 information system controls at the Eagan, San
Mateo, and St. Louis Information Technology and Accounting Service Centers; and the
Raleigh Information Technology Service Center (ITSC).13

The CFC is the world’s largest annual workplace charity campaign with more than
200 CFC campaigns14 throughout the country and internationally. Postal Service
employees make contributions through cash, check, and payroll deductions to support
eligible non-profit organizations that provide health and human services throughout the
world. About 85,000 Postal Service employees contribute more than $900,000 to the
campaigns through payroll deductions each pay period. Contributions are solicited
September 1 through December 15 each year. Employees choose a charity and
contribution by completing a pledge form, which authorizes and initiates the payroll
deductions. These payroll deductions are processed at Eagan Accounting Services and
payments are disbursed to the various campaigns.




9
  Other Accounting Services are in St. Louis, MO, and San Mateo, CA.
10
   FY 2012 Postal Service Financial Statements Audit – St. Louis Accounting Services (Report
Number FT-AR-13-005, dated December 17, 2012).
11
   FY 2012 Postal Service Financial Statements Audit – San Mateo Accounting Services (Report
Number FT-AR-13-006, dated December 20, 2012).
12
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters; Integrated
Business Systems Solutions Centers in St. Louis, Eagan, and San Mateo; field sites; and the Raleigh, NC, ITSC.
13
   Fiscal Year 2012 Information Technology Internal Controls (Report Number IT-AR-13-003, dated
January 28, 2013).
14
   Campaigns identify the charitible fund raising program established and administered by the director of the Office of
Personnel Management.


                                                           4
Fiscal Year 2012 Postal Service Financial Statements Audit –                                           FT-AR-13-009
 Eagan Accounting Services


Objectives, Scope, and Methodology

The objectives of the audit were to determine whether:15

    Financial accounting policies and procedures of the Postal Service provide for an
     adequate internal control structure16 and comply with accounting principles generally
     accepted in the U.S.

    Accounting transactions at Eagan ASCs impacting the general ledger account
     balances for assets, liabilities, equity, income, and expenses of the Postal Service
     are fairly stated in accordance with accounting principles generally accepted in the
     U.S.

    General ledger account balances conform to the general classification of accounts of
     the Postal Service on a basis consistent with that of the previous year.

    The Postal Service complies with laws and regulations that have a direct and
     material effect on the financial statements taken as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. Our audit included tests originated by the OIG and reperformance of
management testing. We conducted this audit from November 2011 through
February 201317 in accordance with the standards of the Public Company Accounting
Oversight Board (PCAOB) (U.S.) and standards applicable to financial audits contained
in the Government Auditing Standards issued by the comptroller general of the U.S.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to limit audit risk to a low level that is, in our professional
judgment, appropriate for supporting the overall audit opinion on financial statements.
Those standards also require considering the results of previous engagements and
following up on known significant findings and recommendations that directly relate to
the objectives of the audit. An audit also requires a sufficient understanding of internal
controls to plan the audit and determine the nature, timing, and extent of audit
procedures to be performed. We believe the evidence obtained provides a reasonable
basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatements (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
and Government Auditing Standards may not detect a material misstatement. However,
external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We

15
   The IPA maintains overall responsibility for testing and reviewing significant Eagan Accounting Services accounts
and processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
16
   To ensure key controls are properly designed and operationally effective.
17
   The scope of our audit was October 1, 2011, through September 30, 2012.


                                                          5
Fiscal Year 2012 Postal Service Financial Statements Audit –                   FT-AR-13-009
 Eagan Accounting Services


discussed our observations and conclusions with management on December 17, 2012,
and included their comments where appropriate.

We relied on computer-generated data from a number of Postal Service financial
systems, including:

   Accounting Enterprise Data Warehouse Reporting.
   National Accounting Oracle Financial Application.
   Payroll Systems.
   SAP Human Capital Management.
   Employee Personnel Action History.
   PostalEASE.
   Electronic Official Personnel Folder.

To assess the reliability of these systems’ data, we performed specific internal control
and transactions tests, including tracing selected financial information to supporting
source records, for testing originated by the OIG. For example, we traced payroll
system reports to Report AAL060P, Content of W2s Created For Year 11. We
determined that the data were sufficiently reliable for the purposes of this report.




                                                     6
Fiscal Year 2012 Postal Service Financial Statements Audit –                   FT-AR-13-009
 Eagan Accounting Services



Prior Audit Coverage

                                                                 Final
                                                                Report     Monetary
           Report Title            Report Number                  Date      Impact
  Fiscal Year 2011 Postal          FT-AR-12-007                12/19/11   $28,758,859
  Service Financial Statements
  Audit – Eagan Information
  Technology and Accounting
  Service Center
  Report Results:
  We did not propose any adjustments or report any significant issues and did not
  make any recommendations. Management took corrective action during our audit to
  improve their methodology of estimating the unemployment compensation liability
  accrual and reduced the accrual by $28.8 million.

  Fiscal Year 2010 Postal              FT-AR-11-005       12/30/10            None
  Service Financial Statements
  Audit – Eagan Information
  Technology and Accounting
  Service Center
  Report Results:
  We did not propose any adjustments or report any significant issues and did not
  make any recommendations. Management took corrective action during our audit to
  update the certifying officer list and implement additional controls to prevent
  improper certification of payments. Management also took action to correct the
  formula in the Time and Attendance System Close Out Report.




                                                     7
Fiscal Year 2012 Postal Service Financial Statements Audit –    FT-AR-13-009
 Eagan Accounting Services



                            Appendix B: Management's Comments




                                                     8
